  Department of Health and Human Services
                     OFFICE OF
                INSPECTOR GENERAL




 TRAILBLAZER HEALTH ENTERPRISES,
   LLC, CLAIMED UNALLOWABLE
MEDICARE PART B TERMINATION COSTS




    Inquiries about this report may be addressed to the Office of Public Affairs at
                             Public.Affairs@oig.hhs.gov.




                                                     Gloria L. Jarmon
                                                  Deputy Inspector General
                                                     for Audit Services

                                                        October 2014
                                                        A-06-13-00017
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8M of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                      EXECUTIVE SUMMARY

 TrailBlazer claimed $137,927 in Medicare Part B termination costs that did not comply with
 Federal regulations and applicable guidelines and claimed $1,158,538 in potentially unallowable
 termination costs for severance pay.


WHY WE DID THIS REVIEW

The Centers for Medicare & Medicaid Services (CMS) administers the Medicare program
through contracts with private organizations that process and pay Medicare claims. These
contracts with CMS provide for the reimbursement of allowable contract termination costs.
CMS terminated its Medicare Part B contract with TrailBlazer Health Enterprises, LLC
(TrailBlazer). CMS requested that we audit the Medicare Part B termination costs that
TrailBlazer claimed for reimbursement.

The objective of this review was to determine whether TrailBlazer’s claims for Medicare Part B
termination costs were reasonable, allocable, and otherwise allowable in accordance with part 31
of the Federal Acquisition Regulation (FAR) and its Medicare Part B contract.

BACKGROUND

Title XVIII of the Social Security Act established the Medicare program, which provides health
insurance coverage to people aged 65 and over, people with disabilities, and people with end-
stage renal disease. CMS administers the Medicare program through contractors, including
Part B carriers that process and pay Medicare claims. Contracts between CMS and the Medicare
contractors define the functions to be performed and provide for the reimbursement of allowable
administrative costs incurred in the processing of Medicare claims and allowable termination
costs when CMS terminates a contract. In claiming costs, contractors must comply with the
Medicare contract and follow cost reimbursement principles contained in the FAR.

CMS contracted with TrailBlazer to serve as the Medicare Part B carrier responsible for
processing claims for Virginia, Maryland, Delaware, and the District of Columbia. Beginning
June 2006, CMS started replacing Medicare Part B carriers with entities called Medicare
Administrative Contractors (MACs). CMS did not award TrailBlazer a MAC contract and
terminated TrailBlazer’s Medicare Part B contract for Maryland, Delaware, and the District of
Columbia effective July 15, 2008, and for Virginia effective March 21, 2011.

TrailBlazer, formerly headquartered in Dallas, Texas, was a wholly owned subsidiary of
BlueCross BlueShield of South Carolina (BlueCross). BlueCross provided certain management
and other operational support services for TrailBlazer, including accounting, human resources,
legal, and general corporate administration. Because TrailBlazer is no longer in business, we are
addressing the report findings and recommendations to BlueCross.




TrailBlazer Medicare Part B Termination Costs (A-06-13-00017)                                      i
WHAT WE FOUND

Of the $3,962,920 in Medicare Part B termination costs that we reviewed, $2,666,455 was
reasonable, allocable, and otherwise allowable in accordance with part 31 of the FAR and the
Medicare contract. The remaining $1,296,465 consisted of $137,927 in unsupported costs and
travel costs in excess of the allowable per diem rates and $1,158,538 in potentially unallowable
termination costs for severance pay.

TrailBlazer claimed these unsupported costs and travel costs in excess of allowable per diem
rates because it did not have adequate internal control procedures to ensure that it claimed costs
in accordance with the regulations set forth in the FAR and the Medicare contract.

WHAT WE RECOMMEND

We recommend that BlueCross:

    •   refund to the Federal Government $137,927 for unsupported costs and travel costs and

    •   work with CMS to determine the allowability of $1,158,538 in termination costs for
        severance pay that we set aside and refund to the Federal Government any amount
        determined to be unallowable.

BLUECROSS BLUESHIELD OF SOUTH CAROLINA COMMENTS

In its comments on our draft report, BlueCross concurred with our recommendations.




TrailBlazer Medicare Part B Termination Costs (A-06-13-00017)                                        ii
                                                     TABLE OF CONTENTS


INTRODUCTION ..........................................................................................................................1

           Why We Did This Review ..................................................................................................1

           Objective .............................................................................................................................1

           Background .........................................................................................................................1

           How We Conducted This Review.......................................................................................2

FINDINGS ......................................................................................................................................2

           TrailBlazer Claimed Unallowable Costs ............................................................................2

                      TrailBlazer Claimed Unsupported Costs ................................................................2

                      TrailBlazer Claimed Travel Costs That Exceeded Allowable Per Diem Rates ......3

                      Lack of Adequate Internal Controls ........................................................................3

           TrailBlazer Claimed Potentially Unallowable Severance Costs .........................................3

RECOMMENDATIONS ................................................................................................................4

BLUECROSS BLUESHIELD OF SOUTH CAROLINA COMMENTS ......................................4

APPENDIXES

           A: Audit Scope and Methodology .....................................................................................5

           B: BlueCross BlueShield of South Carolina Comments ...................................................6




TrailBlazer Medicare Part B Termination Costs (A-06-13-00017)                                                                                    iii
                                               INTRODUCTION

WHY WE DID THIS REVIEW

The Centers for Medicare & Medicaid Services (CMS) administers the Medicare program
through contracts with private organizations that process and pay Medicare claims. These
contracts with CMS provide for the reimbursement of allowable contract termination costs.
CMS terminated its Medicare Part B contract with TrailBlazer Health Enterprises, LLC
(TrailBlazer). CMS requested that we audit the Medicare Part B termination costs that
TrailBlazer claimed for reimbursement.

OBJECTIVE

Our objective was to determine whether TrailBlazer’s claims for Medicare Part B termination
costs were reasonable, allocable, and otherwise allowable in accordance with part 31 of the
Federal Acquisition Regulation (FAR) 1 and its Medicare Part B contract.

BACKGROUND

Title XVIII of the Social Security Act established the Medicare program, which provides health
insurance coverage to people aged 65 and over, people with disabilities, and people with end-
stage renal disease. CMS administers the Medicare program through contractors, including
Part B carriers that process and pay Medicare claims. Contracts between CMS and the Medicare
contractors define the functions to be performed and provide for the reimbursement of allowable
administrative costs incurred in the processing of Medicare claims and allowable termination
costs when CMS terminates a contract. In claiming costs, contractors must comply with the
Medicare contract and follow cost reimbursement principles contained in the FAR.

CMS contracted with TrailBlazer to serve as the Medicare Part B carrier responsible for
processing claims for Virginia, Maryland, Delaware, and the District of Columbia. Beginning
June 2006, CMS started replacing Medicare Part B carriers with new contract entities called
Medicare Administrative Contractors (MACs). 2 CMS did not award TrailBlazer a MAC
contract and terminated TrailBlazer’s Medicare Part B contract for Maryland, Delaware, and the
District of Columbia effective July 15, 2008, and for Virginia effective March 21, 2011. 3

TrailBlazer, formerly headquartered in Dallas, Texas, was a wholly owned subsidiary of
BlueCross BlueShield of South Carolina (BlueCross). BlueCross provided certain management
and other operational support services for TrailBlazer, including accounting, human resources,


1
    48 CFR, part 31, Contract Cost Principles and Procedures.
2
    Section 911 of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003, P.L. No. 108-173.
3
 TrailBlazer also processed claims for Texas. CMS terminated TrailBlazer’s Medicare Part B carrier contract for
Texas effective June 13, 2008, and requested that we audit termination costs that TrailBlazer claimed for its Part B
carrier contract for Virginia, Maryland, Delaware, and the District of Columbia, but not Texas.


TrailBlazer Medicare Part B Termination Costs (A-06-13-00017)                                                          1
legal, and general corporate administration. Because TrailBlazer is no longer in business, we are
addressing the report findings and recommendations to BlueCross.

HOW WE CONDUCTED THIS REVIEW

Our review covered $3,962,920 in Medicare Part B termination costs that TrailBlazer claimed
from July 2008 through March 2012. TrailBlazer claimed costs for building lease termination,
asset disposal, severance pay, personnel, termination of service and maintenance contracts, and
other miscellaneous costs. We determined the allowability of the termination costs that
TrailBlazer claimed by tracing claimed cost items to supporting documentation and reviewed
TrailBlazer’s severance costs to ensure that TrailBlazer claimed severance only for employees
eligible under the contract.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

See Appendix A for the details of our audit scope and methodology.

                                               FINDINGS

Of the $3,962,920 in Medicare Part B termination costs that we reviewed, $2,666,455 was
reasonable, allocable, and otherwise allowable in accordance with part 31 of the FAR and the
Medicare contract. The remaining $1,296,465 consisted of $137,927 in unsupported costs and
travel costs in excess of the allowable per diem rates and $1,158,538 in potentially unallowable
termination costs for severance pay.

TrailBlazer claimed the unsupported costs and travel costs in excess of allowable per diem rates
because it did not have adequate internal control procedures to ensure that it claimed costs in
accordance with the regulations set forth in the FAR and with the terms of the Medicare contract.

TRAILBLAZER CLAIMED UNALLOWABLE COSTS

TrailBlazer Claimed Unsupported Costs

A contractor is responsible for accounting for costs appropriately and for maintaining records,
including supporting documentation, adequate to demonstrate that costs claimed have been
incurred, are allocable to the contract, and comply with applicable cost principles in the
FAR 31.2 and in agency supplements (FAR 31.201-2(d)). The contracting officer may disallow
all or part of a claimed cost that is inadequately supported.

In addition, the contract between TrailBlazer and CMS required the contractor to maintain
records and provide such access to them as the Secretary of Health and Human Services finds



TrailBlazer Medicare Part B Termination Costs (A-06-13-00017)                                      2
necessary to assure the correctness and verification of the information necessary for the
administration of the contract. 4

TrailBlazer could not provide documentation to support $137,820 in costs claimed for asset
disposal, moving and rearranging, termination of service and maintenance contracts, personnel,
and other miscellaneous items.

TrailBlazer Claimed Travel Costs That Exceeded Allowable Per Diem Rates

Costs incurred by contractor personnel on official company business are allowable, subject to
certain limitations. Costs incurred for lodging, meals, and incidental expenses are considered to
be reasonable and allowable only to the extent that they do not exceed the maximum per diem
rates in effect at the time of travel, as set forth in the Federal Travel Regulations for travel in the
contiguous United States (FAR 31.205-46(a)(2)(i)).

TrailBlazer claimed $107 in travel costs that exceeded the allowable per diem rates. 5 The
individual traveled to Baltimore, Maryland, for four nights and stayed in a hotel with a nightly
rate that exceeded the allowable per diem rate. In addition, the individual’s meals and incidental
expenses exceeded the allowable per diem amount for the trip.

Lack of Adequate Internal Controls

TrailBlazer claimed the unsupported costs and travel costs in excess of allowable per diem rates
because it did not have adequate internal control procedures to ensure that it claimed costs in
accordance with the regulations for determining the allowability of contract costs set forth in the
FAR and the Medicare contract.

TRAILBLAZER CLAIMED POTENTIALLY UNALLOWABLE SEVERANCE COSTS

A cost is allocable if it is assignable or chargeable to one or more cost objectives on the basis of
relative benefits received or other equitable relationship. Subject to the foregoing, a cost is
allocable to the Government contract if it is incurred specifically for the contract or benefits both
the contract and other work but can be distributed to them in reasonable proportion to the
benefits received, or is necessary to the overall operation of the business, although a direct
relationship to any particular cost objective cannot be shown (FAR 31.201-4).

For “abnormal” or “mass” severance pay, as opposed to “normal turnover” severance payments,
the FAR provides that the Government will participate “to the extent of its fair share”
(FAR 31.205-6(g)(5)).

Moreover, a contractor is responsible for accounting for costs appropriately and for maintaining
records, including supporting documentation, adequate to demonstrate that costs claimed have
been incurred, are allocable to the contract, and comply with applicable cost principles in
4
    Section I, Article II, Functions to be Performed by the Carrier, paragraph H.
5
    TrailBlazer stated that it was their intent to comply with the per diem rates.


TrailBlazer Medicare Part B Termination Costs (A-06-13-00017)                                             3
FAR 31.2 and in agency supplements (FAR 31.201-2(d)). The contracting officer may disallow
all or part of a claimed cost that is inadequately supported.

Finally, TrailBlazer’s contract states that “[a]ll direct and indirect costs which relate to the
contractor’s non-Medicare business and do not contribute to the Medicare agreement/contract”
are unallowable (Appendix B, § XV, paragraph A).

TrailBlazer claimed $1,158,538 in reimbursement for employee severance costs. TrailBlazer
based its claim for severance reimbursement for all employees on the total years of their service
with TrailBlazer. However, some of these employees worked for TrailBlazer’s private lines of
business as well as Medicare. This method provided an inequitable allocation of costs to
Medicare.

TrailBlazer should have based the severance costs charged to Medicare only on those years that
the employees worked on TrailBlazer’s Medicare line of business. The remainder of the
employees’ severance costs should have been charged to TrailBlazer’s private lines of business,
as appropriate. However, TrailBlazer’s accounting system was unable to calculate the years of
service an employee worked on TrailBlazer’s private lines of business. As a result, we are
setting aside $1,158,538 for CMS to determine whether it was allowable.

                                       RECOMMENDATIONS

We recommend that BlueCross:

    •   refund to the Federal Government $137,927 for unsupported costs and travel costs and

    •   work with CMS to determine the allowability of $1,158,538 in termination costs for
        severance pay that we set aside and refund to the Federal Government any amount
        determined to be unallowable.

BLUECROSS BLUESHIELD OF SOUTH CAROLINA COMMENTS

In its comments on our draft report, BlueCross concurred with our recommendations.
BlueCross’s comments are included in their entirety as Appendix B.




TrailBlazer Medicare Part B Termination Costs (A-06-13-00017)                                       4
                   APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

Our review covered $3,962,920 in Medicare Part B termination costs that TrailBlazer claimed
from July 2008 through March 2012. TrailBlazer claimed costs for building lease termination,
asset disposal, severance pay, personnel, termination of service and maintenance contracts, and
other miscellaneous costs.

Our objective did not require us to review TrailBlazer’s overall internal control structure. We
limited our review to obtaining an understanding of TrailBlazer’s procedures for identifying and
reporting cost claims to CMS.

We conducted our audit work from May 2013 through February 2014.

METHODOLOGY

To accomplish our objective, we:

    •   reviewed applicable Medicare laws, regulations, and guidelines, including part 31 of the
        FAR and the Medicare contract provisions;

    •   reviewed TrailBlazer’s policies and procedures, including its severance policy;

    •   interviewed TrailBlazer officials to obtain an understanding of how TrailBlazer claimed
        termination costs;

    •   determined the allowability of the termination costs that TrailBlazer claimed for the
        building lease termination, asset disposal, personnel, termination of service and
        maintenance contracts, and other miscellaneous costs by tracing claimed cost items to
        supporting documentation, including invoices, accounting reports, and payroll records;

    •   reviewed TrailBlazer’s severance costs to ensure that TrailBlazer claimed severance only
        for employees eligible under the contract; and

    •   discussed the results of our audit with BlueCross officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




TrailBlazer Medicare Part B Termination Costs (A-06-13-00017)                                      5
APPENDIX B: BLUECROSS BLUESHIELD OF SOUTH CAROLINA COMMENTS 




                                                                                                         ~0
                                                                                                 PALMETTO GSA.
            PO BOX 100134    I   COlUMBIA,   sc 29202-3134 I   PAlMETTOGBA .COM   I   ISO 9001   A CELERIAN GROUP COMPANY

            JOE WRIGHT
            Vke Pro•ident end CFO


            August 20, 2014



            Ms. Patricia Wheeler
            Regional Inspector General
                 For Audit Services
            Centers for Medicare and Medicaid Setvices
            I tOO Commerce Street, Room 632
            Dallas, Texas 75242

            RE : Audit Rep0l1 Number: A-06-13-000 17

            Dear Ms. Wheeler:

            We are responding to the draft report dated July 22, 2014 entitled "TrailBlazer Health
            Enterprises, LLC, Claimed Unallowable Medicare Part 8 Tem1ination Costs" for the FY July
            2008 thru March 2012.

            'TI1e audit contained the following recommendations with which we concur on behalf of
            TrailBlazer Enterpri ses, LLC:

                 • 	 Refund to the Federal Govemmenl $137,927 ofunsupported costs and travel costs and

                 • 	 Work with CMS to determine the allowability of $1,158,538 in tem1ination costs for
                     severance pay that was set aside and refund to the Federal Govemment any amount
                     detennined to be unallowable.

            If yo u have any questions, please !'eel free to contact me at 803-763-5544.

                                                                          Sincerely,

                                                                            /s/


            cc: 	     Bmce Hughes, BCBSSC
                      Louis McElveen, BCBSSC
                      Mark Wimple, OIG




TrailBlazer Medicare Part B Terminaiion Costs (A-06-13-00017)                                                               6
